21) Statements and Notices. Statements and notices will be mailed to you at the most recent
address you have given the Credit Union. You agree to give us prompt notice of any change in
your name, mailing address, telephone number or place of employment.
22) Copy Received. By using the Card or the account, you acknowledge that you have received
a copy of this Agreement and agree to all the terms and conditions and promise to perform all
the obligations, requirements and duties contained in this Agreement.
23) Additional Provisions. Each provision of this Agreement must be considered as part of
the total Agreement and cannot, in any way, be severed from it. However, you also agree that
should any part of the Agreement be found invalid, it will in no way affect the remainder of the
Agreement. You understand the validity, construction, and enforcement of this Agreement shall
be governed by the laws of the State of Texas and federal law. Use of your Card is also subject
to the policies and rules of MasterCard International and VISA International, as applicable
and in effect from time to time, which do not conflict with the terms of this Agreement. The
Credit Union does not warrant any merchandise or services purchased by you with the Card.
All purchases and cash advances are extended at the option of the merchant or cash advancing
financial institution and the Credit Union is not responsible for refusal of any merchant or
financial institution to honor your Card. We can accept late payments or partial payments or
checks or money orders marked “payment in full” without losing any of our rights under
this Agreement. We can also delay enforcing any of our rights under this Agreement without
losing them.
YOUR BILLING RIGHTS — KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the
Fair Credit Billing Act.
Notify Us In Case of Errors or Questions About Your Bill
If you think your bill is wrong or if you need more information about a transaction on your bill,
write us on a separate sheet at the address listed on your bill. Write us as soon as possible. We
must hear from you no later than 60 days after we sent you the first bill on which the error or
problem appeared. You can telephone us, but doing so will not reserve your rights.
In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe there is an error. If you need
more information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or
share draft account, you can stop the payment on any amount you think is wrong. To stop
the payment your letter must reach us three business days before the automatic payment is
scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice
We must acknowledge your letter within 30 days, unless we have corrected the error by then.
Within 90 days, we must either correct the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question or report you as
delinquent. We can continue to bill you for the amount you question, including the FINANCE
CHARGES, and we can apply an unpaid amount against your credit limit. You do not have to
pay any questioned amount while we are investigating, but you are still obligated to pay the
parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay any FINANCE
CHARGES related to any questioned amount. If we didn’t make a mistake, you may have
to pay FINANCE CHARGES, and you will have to make up any missed payments on the
questioned amount. In either case, we will send you a statement of the amount you owe and
the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent.
However, if our explanation does not satisfy you and you write to us within 10 days telling
us that you still refuse to pay, we must tell anyone we report you to that you have a question
about your bill. And, we must tell you the name of anyone we reported you to. We must tell
anyone we report you to that the matter has been settled between us when it finally is.
If we don’t follow these rules, we can’t collect the first $50 of the questioned amount, even if
your bill was correct.
Special Rule For Credit Card Purchases
If you have a problem with the quality of property or services that you purchased with a credit
card, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the property or services. There are two
limitations on this right:
• You must have made the purchase in your home state or, within 100 miles of your current
mailing address; and
• The purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if we mailed you the
advertisement for the property or services.

G16223

CREDIT CARD AGREEMENT

P. O. BOX 920719 • Houston, TEXAS 77292-0719
(713) 850-1600 • (800) 392-5084 • FAX: (713) 622-6860
www.smartcu.org
In this Agreement, the words “we,” “our,” “us,” and “Credit Union” mean Smart Financial
Credit Union or its successors. “You” and “your” mean any person who signs this Agreement
or uses the Card. “The Card” means any credit card issued to you or those designated by you
under the terms of this Agreement. “Use of the Card” means any procedure used by you, or
someone authorized by you, to make a purchase or obtain a cash advance whether or not the
purchase or advance is evidenced by a signed written document. “Unauthorized use of the
Card” means the use of the Card by someone other than you who does not have actual, implied,
or apparent authority for such use, and from which you receive no benefit.
ADDITIONAL SECURITY. If you have other loans with us, now or in the future, collateral
securing those loans may also secure your obligations under this Agreement. Please read
any security agreement you sign in order to determine if the collateral also secures your
obligations under this Agreement and other agreements you have with us.
1) Extensions of Credit. If your Application is approved, the Credit Union may, at its
discretion, establish a line of credit in your name and cause one or more Cards to be issued to
you or those designated by you. In such event, you authorize the Credit Union to pay for your
account, all items reflecting credit purchases and cash advances obtained through use of the
Card. You may not use your Card for any illegal purpose or transaction. The Credit Union may
refuse to authorize any transaction that it believes to be illegal or that poses an undue risk or
illegality. If we do process any transaction which ultimately is determined to have been for an
illegal purpose, you agree that you will remain liable to us under this Agreement for any such
transaction notwithstanding its illegal nature. You agree that any illegal use of the Card will
be deemed an act of default under this Agreement. You further agree to waive any right to take
legal action against the Credit Union for illegal use of the Card and to indemnify and hold the
Credit Union, MasterCard International, Inc., and VISA International, Inc. harmless from and
against any lawsuits, other legal action or liability that results directly or indirectly from such
illegal use.
2) Joint Applicant Liability. If this Agreement is executed by more than one person, each of
you shall be jointly and individually liable to us for all charges made to the account, including
applicable fees. In addition, you agree that each of you designates the other as agent for the
purpose of making purchases extended under this Agreement and each use of your account
shall be an extension of credit to all. Notice to one of you shall constitute notice to all. Any
joint cardholder may remove him/herself from responsibility for future purchases at any time
by notifying us in writing. However, removal from the account does not release you from any
liability already incurred.
3) Others Using Your Account. If you allow anyone else to use your Card, you will be liable
for all credit extended to such persons. You promise to pay for all purchases, balance transfers,
and cash advances made by anyone whom you authorize to use your Card, whether or not you
notify us that he or she will be using it. If someone else is authorized to use your Card and you
want to end that person’s privilege, you must notify us in writing, and if he or she has a Card,
you must return the Card with your written notice for it to be effective.
4) Credit Limits. You promise the payments made for your account resulting from use of the
Card will, at no time, cause the outstanding balance in your account to exceed your credit limit
as disclosed to you at the time you received your Card or as adjusted from time to time at the
discretion of the Credit Union.
5) Promise To Pay. Each month you must pay at least the minimum payment shown on your
statement by the date specified on the statement or no later than twenty-five (25) days from the
statement closing date, whichever is later. If your statement says the payment is “Now Due,”
your payment is due no later than twenty-five (25) days from the statement closing date. You
may pay more frequently, pay more than the minimum payment or pay the Total New Balance in
full. If you make extra or larger payments, you are still required to make at least the minimum
payment each month your Account has a balance (other than a credit balance). The minimum
payment is 2% of your Total New Balance, or $25.00, whichever is greater, plus the amount of
any prior minimum payments that you have not made, and any amount you are over your credit
limit. The Credit Union also has the right to demand immediate payment of any amount by
which you are over your credit limit.
6) Cost of Credit. The ANNUAL PERCENTAGE RATE used to calculate your Smart
Financial Credit Union credit card account is based on your credit history and our lending
guidelines at the time the credit card account is opened and at the time of any review of your
credit card account. Cash advances (including balance transfers) incur a FINANCE CHARGE
from the date they are posted to the account. You will pay a FINANCE CHARGE for all
advances made against your account at the periodic rate per day, which has a corresponding
ANNUAL PERCENTAGE RATE (See table below). For purchases, if you have paid your
account in full by the due date shown on the previous monthly statement, or there is no previous

balance, you have not less than 25 days to repay your account balance before a FFINANCE
CHARGE on new purchases will be imposed. Otherwise, there is no grace period and new
purchases will incur a FINANCE CHARGE from the date they are posted to the account.
The FINANCE CHARGE is figured by applying the periodic rate to the “balance subject
to FINANCE CHARGE” which is the “average daily balance” of your account, including
certain current transactions. The “average daily balance” is arrived at by taking the beginning
balance of your account each day and adding any new cash advances, and unless you pay
your account in full by the due date shown on your previous monthly statement or there is no
previous balance, adding in new purchases, and subtracting any payments or credits and unpaid
FINANCE CHARGES. This gives us the daily balance. The daily balances for the billing
cycle are then added together and divided by the number of days in the billing cycle. The result
is the “average daily balance.” The FINANCE CHARGE is determined by multiplying the
“average daily balance” by the number of days in the billing cycle and applying the periodic
rate to the product.
Annual Percentage

Rate Periodic Rate

8.49%
9.49%
13.79%
15.79%
17.79%

0.023260%
0.026000%
0.037781%
0.043260%
0.0487397%

7) Other Charges. The following other charges (fees) will be added to your account, as
applicable:
• ATM Fee. If you obtain a cash advance by using an automated teller machine, you may
be charged any amounts imposed upon the Credit Union by the owner or operator of
the machine. Any charge made under this paragraph will be added to the balance of your
account and treated as a purchase.
• Collection Cost Fee. You agree to pay all reasonable costs of collection, including court
costs and attorney’s fees imposed and any costs incurred in the recovery of the Card.
• Return Check or ACH Fee. If a check or share draft or ACH transaction used to make
a payment on your account is returned unpaid, you may be charged a fee of $25.00 for
each item returned.
• Late Payment Fee. If you are 10 or more days late in making a payment, a late charge
equal to 5.00% of the minimum payment (not to exceed $25.00) may be added to your
account.
• Document Copy Fee. You will be charged $3.00 for each copy of a sales draft or
statement that you request (except when the request is made in connection with a billing
error made by the credit union).
8) Credit Insurance. If available, credit insurance is not required for any extension of credit
under this Agreement. However, you may purchase any credit insurance available through the
Credit Union and have the premium added to the outstanding balance in your account. If you
elect to do so, you will be given the necessary disclosures and documents separately.
9) Liability for Unauthorized Use. For MasterCard, you may be liable for the unauthorized use
of your Card. For MasterCard, you will not be liable for any unauthorized use of your Card if you
notify our designee orally or in writing at the Credit Card Center, PO Box 815909, Dallas, TX
75381-5909, telephone number 1-800-442-4757, of the loss, theft, or possible unauthorized use
and you meet the following conditions: (1) you have exercised reasonable care with the Card;
(2) you have not reported two or more incidents of unauthorized Card use within the previous
12 months; and (3) you have maintained your account in good standing. The foregoing liability
limitation does not apply to ATM cash advance transactions.In any case, your maximum
liability for unauthorized use of the Card will not exceed $50.00 and you will not be liable for
any unauthorized use that occurs after you notify us (or our designee) at the address or telephone
number above.
For VISA, you may be liable for the unauthorized use of your Card. You will not be liable for
unauthorized use of your Card if you notify our designee orally or in writing at the Credit Card
Center, PO Box 815909, Dallas, TX 75381-5909, telephone number 1-800-442-4757, of the
loss, theft, or possible unauthorized use. The foregoing liability limitation does not apply if you
are grossly negligent or fraudulent in the handling of your account or your Card, nor does it apply
in the case of cash advances obtained at an ATM. In any case, your liability for unauthorized
use will not exceed $50 and you will not be liable for any unauthorized use that occurs after you
notify us (or our designee) at the address or telephone number above.
10) Crediting of Payments. All payments made on your account at the address designated
for payment on the monthly periodic statement will be credited to your account on the date
of receipt. If the date of receipt is not a business day, your payment will be credited on the
first business day following receipt. IF PAYMENT IS MADE AT ANY LOCATION OTHER
THAN THE ADDRESS DESIGNATED ON THE PERIODIC STATEMENT, CREDIT FOR
SUCH PAYMENT MAY BE DELAYED UP TO FIVE (5) DAYS. All payments on your
account will be applied first to collection costs, then to any FINANCE CHARGE and other
fees due, and then to the unpaid principal balance. Interest paid or agreed to be paid shall
not exceed the maximum amount permissible under applicable law, and in any contingency
whatsoever, if we shall receive anything of value deemed interest under applicable law which
would exceed the maximum amount of interest permissible under applicable law, the excessive
interest shall be applied to the reduction of the unpaid principal amount or refunded to you. If
you make a payment which exceeds the minimum balance due and you have balance transfers
at a lower interest and purchases at another interest rate, any over payment will be applied to the
highest interest balance first.

11) Default. You will be in default: (1) if you fail to make any payment on time; (2) if you fail
to keep any promises you have made under this or any other Agreement with the Credit Union;
(3) if you are the subject of an order for relief under Title 11 of the U.S. Code (Bankruptcy);
(4) if anyone tries, by legal process, to take any of your money in the Credit Union; (5) if you
have given the Credit Union false or inaccurate information in obtaining your Card; or (6) if
anything happens which the Credit Union reasonably believes endangers your ability to repay
what you owe.
12) Acceleration. If you are in default, the Credit Union may, without prior notice to you, call
any amounts you still owe immediately due and payable plus FINANCE CHARGES, which
shall continue to accrue until the entire amount is paid. You expressly waive any right to notice
or demand, including but not limited to, demand upon default, notice of intention to accelerate,
and notice of acceleration. The Card remains the property of the Credit Union at all times and you
agree to immediately surrender the Card upon demand of the Credit Union.
13) Additional Benefits/Card Enhancements. The Credit Union may from time to time offer
additional services to your account at no additional cost to you. You understand that the Credit
Union is not obligated to offer such services and may withdraw or change them at any time.
14) Convenience Checks. The Credit Union may, at its discretion, issue checks to you which
may be used for any purpose other than making a payment for credit to your account. By signing
such check, you authorize the Credit Union to pay the item for the amount indicated and post
such amount as a cash advance to your account. The Credit Union does not have to pay any
item, which would cause the outstanding balance in your account to exceed your credit limit.
15) Continuation of Credit. The Credit Union may from time to time request personal
information from you for the purpose of updating your credit status, according to normal credit
procedures. Your failure to provide such information when requested by the Credit Union may
result in suspension of your line of credit privileges under this Agreement, including your ability
to obtain any future advances by any means.
16) Currency Conversion. For MasterCard, if you effect a transaction in a currency other
than U.S. dollars, MasterCard International will convert the charge into a U.S. dollar amount.
MasterCard International will use its currency conversion procedure, which is disclosed to
institutions that issue MasterCards. Currently, the currency conversion rate used by MasterCard
International to determine the transaction amount in U.S. dollars for such transactions is
generally either a government- mandated rate or a wholesale rate determined by MasterCard
International for the processing cycle in which the transaction is processed, increased by an
adjustment factor established from time to time by MasterCard International. The currency
conversion rate used by MasterCard International on the processing date may differ from the
rate that would have been used on the purchase date or cardholder statement posting date. For
VISA, for transactions initiated in foreign currencies, the exchange rate between the transaction
currency and the billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the
range of rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives; or (b) the government mandated
rate in effect for the applicable central processing date. In each instance, plus any adjustment
determined by the Credit Union.
17) VISA Emergency Services. For VISA Platinum cardholders, you acknowledge that we
may provide personal data concerning you to VISA U.S.A., its Members, or their respective
contractors for the purpose of providing you with VISA Emergency Cash and Emergency Card
Replacement Services, and you consent to the release of your information for these purposes.
MasterCard Emergency Services. For Mastercard Platinum cardholders, you acknowledge
that we may provide personal data concerning you to Mastercard International, its Members,
or their respective contractors for the purpose of providing you with Mastercard Emergency
Cash and Emergency Card Replacement Services, and you consent to the release of your
information for these purposes.
18) Termination or Changes. The Credit Union may, by written notice, terminate this
Agreement at any time. You may terminate this Agreement, by written notice. Termination
by either party shall not affect your obligation to repay any payments made for your account
resulting from use of the Card as well as FINANCE CHARGES and OTHER RELATED
CHARGES. The Credit Union has the right to change any part of this Agreement or add or
remove any term, condition, or requirement. If permitted by law, the change may be applied to
any Account balance existing at the time of the change. We will give you written notice prior
to the effective date of any such change, if required by law. From time to time, we may review
your Account. Based on these reviews, we may decide to change your Account terms, including
APRs, fees, and the amount of your credit line. Other changes may include the method of
calculating the periodic rate. Use of the Card or account after having received a notice of change
in terms constitutes agreement to and acceptance of the change in terms.
19) Credit Information. You authorize the Credit Union to investigate your credit standing and
employment history when opening or reviewing your account. You authorize the Credit Union
to disclose information regarding your account to credit bureaus and creditors who inquire
about your credit standing. 20) Notification Address for Information Reported to Consumer
Reporting Agencies.
20) Notification Address for Information Reported to Consumer Reporting Agencies. We
may report the status and payment history of your account to credit reporting agencies each
month. If you believe that the information we have reported is inaccurate or incomplete, please
notify us in writing at Smart Financial Credit Union, P.O. Box 920719, Houston, TX 772920719. Please include your name, address, home telephone number and account number. We may
report the status and payment history of your account to credit reporting agencies each month. If
you believe that the information we have reported is inaccurate or incomplete, please notify us
in writing at Smart Financial Credit Union, P.O. Box 920719, Houston, TX 77292-0719. Please
include your name, address, home telephone number and account number.

